NO.

IN THE
SUPREME COURT OF THE UNITED STATES
BRIAN ADRIAN SLOAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Brian Adrian Sloan, by and through his court-appointed
counsel, John C. Arceci, Assistant Federal Public Defender for the Districts of
Colorado and Wyoming, respectfully requests that this Honorable Court grant his
leave to proceed in forma pauperis in petitioning for a Writ of Certiorari. In support of
this request, Petitioner states that undersigned counsel was appointed pursuant to the
Criminal Justice Act, 18 U.S.C. ยง 3006A, by the United States Court of Appeals for

the Tenth Circuit, and that he is unable to retain counsel and pay for costs attendant
to the proceedings before this Honorable Court.
WHEREFORE, the Petitioner, Brian Adrian Sloan, respectfully requests that
he be granted leave to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s/ John C. Arceci
JOHN C. ARCECI
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

2

